HHS/OIG, Audit -"Partnership Review of Medicaid Claims by Ambulance
Providers for Transportation Services During an Inpatient Stay - Illinois Department
of Public Aid, Springfield, Illinois,"(A-05-02-00074)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Partnership Review of Medicaid Claims by Ambulance Providers for Transportation
Services During an Inpatient Stay - Illinois Department of Public Aid, Springfield,
Illinois," (A-05-02-00074)
April 18, 2003
Complete
Text of Report is available in PDF format (374 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this partnership review was to determine the allowability
of Medicaid claims submitted by ambulance providers for emergency and non-emergency
transportation services provided to recipients during an inpatient hospital
stay.  Using a computerized detection routine developed by the Illinois
Department of Public Aids (IDPA) Office of Inspector General, the partnership
identified thirteen ambulance providers who submitted claims for transportation
services when the recipient was hospitalized.  According to Chapter T-204
of IDPAs Handbook for Providers of Transportation Services, payment
will not be made for a hospitalized patient transported to a second hospital
for outpatient services not available at the hospital of origin.  Because
hospitals typically bill after coinciding transportation bills are submitted,
prepayment edits by IDPA would not detect transportation services provided
to recipients during an inpatient stay.  These 13 ambulance providers
were paid $178,294 for unallowable transportation services provided during
the period April 1, 1999 to March 31, 2002.